HHS/OIG, Audit -"Review Of Medicaid Claims Made For 21 To 64 Year Old Residents Of Private Institutions For Mental Diseases In The Commonwealth Of Virginia,"(A-03-02-00206)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review Of Medicaid Claims Made For 21 To 64 Year Old Residents Of Private Institutions For Mental Diseases In The
Commonwealth Of Virginia," (A-03-02-00206)
August 29, 2003
Complete
Text of Report is available in PDF format (796 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Virginia's Department of Medical Assistance Services (DMAS) did not establish controls to prevent it from claiming Federal
financial participation (FFP) under the Medicaid program for medical services provided to 21 to 64 year old residents of
private Institutions for Mental Diseases (IMDs).  Our review showed that DMAS claimed $127,678 of unallowable FFP.  The
services claimed for reimbursement included personal care, practitioner, pharmacy and transportation services.  Federal
laws and regulations prohibit FFP for the care and treatment of IMD patients in this age range.